fT

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
RONALD CALZONE,
Petitioner,

Vv.

@OCKLE

Legal Briefs

Est. 1923

ERIC T. OLSON, in his official capacity as

Superintendent of the Missouri State Highway Patrol,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4461 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of October, 2019.

Iam duly authorized under the laws of the State of Nebraska to administer oaths.

ko, CBM» Qudaawh, Ole

PATRICIA BILLOTTE
General Notary
State of Nebraska

My Commission Expires Nov 24, 2020

 

Notary Public

Affiant

38863
